 GPRA Performance Measures Audit
of the Dislocated Worker (DW), Trade
  Adjustment Assistance (TAA), and
      North American Free Trade
Agreement - Transitional Adjustment
 Assistance (NAFTA-TAA) Programs




                         U.S. Department of Labor
                         Office of Inspector General
                         Report Number: 23-01-001-03-330
                         Date Issued: March 21, 2001
                            TABLE OF CONTENTS

Description                                             Page Number

Abbreviations and Acronyms                                     i

Executive Summary                                             1

Background                                                    4

Objectives, Scope, and Methodology                            8

Criteria                                                      10

Objective 1 - Monitoring and Internal Controls                11

      Federal, State, and Contractor Monitoring               11
      Internal Controls Over State Systems                    16

Objective 2 - Compliance With GPRA
              and Other Requirements                          18

      Program Office/Division Mission Statements              18
      Program Performance Goals, Strategies, and Measures     22
      Integrating Program Budgets with Annual
      Performance Plans                                       24

Objective 3 - Providing Clear and Consistent Direction
              and Maintaining Intergovernmental Cooperation   28

Attachments

1     Summary of General Controls Over Systems in Sample States
2     ETA Nationwide Reorganization Structure
3     Mission Statement - Division of Adults and Dislocated Workers
4     Mission Statement - Division of Trade Adjustment Assistance
5     Expected Program Results as Outlined in Authorizing Legislation
6     Performance Goals and Measures for DW, TAA, NAFTA Programs
7     State Comments on ETA Direction & Oversight With ETA Responses
8     ETA Comments on the Draft Report
            ABBREVIATIONS AND ACRONYMS

BRS         Basic Readjustment Services
BWI         Bureau of Workforce Investment
CAIP        Community Adjustment and Investment Program
CBO         Community-Based Organization
CFR         Code of Federal Regulations
CMD         Contract Monitoring Department
CY          Calendar Year
DHHS               Department of Health and Human Services
DHUD        Department of Housing and Urban Development
DNEG        Division of National Emergency Grants
DOL         U.S. Department of Labor
DTAA        Division of Trade Adjustment Assistance
DRP         Disaster Recovery Plan
DW          Dislocated Worker
DWD         Wisconsin Department of Workforce Development
DWS         Utah Department of Workforce Services
EEO         Equal Employment Opportunity
ES          Employment Service
ESD         Washington State Employment Security Department
ETA         Employment and Training Administration
FISCAM      Federal Information System Controls Audit Manual
FM          Field Memorandum
FY          Fiscal Year
GAL         General Administrative Letter
GAO         United States General Accounting Office
GPRA               Government Performance and Results Act
IMIS        Integrated Management Information System
JTPA        Job Training Partnership Act
LWDB        Local Workforce Development Board
MIS         Management Information System
NADBANK     North American Development Bank
NAFTA       North American Free Trade Agreement
NAFTA-TAA   NAFTA-Transitional Adjustment Assistance
NEG         National Emergency Grant
NPR         National Performance Review
NRG         National Reserve Grant
NSG         National Stakeholder Group
                                      i

                ABBREVIATIONS AND ACRONYMS

OCFO             Office of the Chief Financial Officer
OAP-DSS   Office of Adult Programs - Division of Systems Support
OIG       Office of Inspector General
OMB       Office of Management and Budget
OSOS      One Stop Operating System
PC        Personal Computer
PIC       Private Industry Council
PL        Public Law
PY        Program Year
RRA       Rapid Response Assistance
RRU       Rapid Response Unit
SDA       Service Delivery Area
SPIR      Standardized Program Information Report
SPR       Social Policy Research Associates
TAA       Trade Adjustment Assistance
TAPR      Trade Act Participant Report
TRA       Trade Readjustment Allowance
TEGL             Training and Employment Guidance Letter
TEIN      Training and Employment Information Notice
TWC       Texas Workforce Commission
TWIST     The Workforce Information System of Texas
USC       United States Code
UC        Unemployment Compensation
UI        Unemployment Insurance
WARN      Worker Adjustment and Retraining Notification Act
WDA       Workforce Development Area
WIA       Workforce Investment Act
WIASRD    WIA Standardized Record Data System
WIB       Workforce Investment Board
WIMS             Wisconsin Information Management System
ii
                               EXECUTIVE SUMMARY

The Government Performance and Results Act (GPRA) of 1993 mandated
performance measurement by Federal agencies and established the framework for
“systematically holding Federal agencies accountable for achieving program results.”
In the language of the Job Training Partnership Act (JTPA) of 1982, as amended, the
Workforce Investment Act (WIA) of 1998, the Trade Act of 1974, as amended, and
the NAFTA Implementation Act of 1993, Congress described the results it expects
programs for dislocated workers and other employment and training programs to
produce. The two primary results specified by the Congress are 1) increased
employment, retention, and earnings, and 2) increased educational and occupational
skills.

The objectives of the audit were to assess:

       1.      Federal, state and contractor monitoring of program information and the
               general controls over the state systems that process program information
               for the three programs;
       2.      ETA compliance with GPRA and other requirements; and
       3.      ETA’s direction and management related to these programs.

Audit work was performed in Pennsylvania, Washington, Utah, Wisconsin, and Texas for the period
October 1, 1998 through July 30, 2000.

Federal, State, and Contractor Monitoring

We reviewed Federal, state and contractor policies and procedures for monitoring the
collection, review, and editing of program performance information for these
programs. We found that the primary contractor that assists ETA with program
information for these programs did not perform onsite monitoring. We also found
that the monitoring policies, systems, and procedures in the five states we visited
provided for regular and comprehensive monitoring of program performance and
results information. However, Federal monitoring of these programs needs to be
significantly strengthened.

Recommendation

We recommend the Assistant Secretary for Employment and Training ensure that the
Office of Adults, Dislocated Workers, and TAA implement the plans for the


                                               -1-
reinstitution and improvement of ETA monitoring of the DW, TAA and NAFTA-
TAA programs in accord with the plans outlined by the Directors of the Division of
Adults and Dislocated Workers, the Division of National Emergency Grants, and the
Division of Trade Adjustment Assistance (see Objective 1, page 15).

General Controls Over State Systems that Process Program Information

Audit work in the sample states included using the six major categories of general
controls and control elements, enumerated in the Federal Information System
Controls Audit Manual (FISCAM), as the basis for assessing whether appropriate
computer-related controls were in place over the systems that process program
information for the three programs under audit. However, available resources did not
permit the testing of the general controls during normal system operations.

This assessment was based primarily on discussions with personnel throughout the
entities, observations of computer-related operations, and reviews of state policies and
procedures. Based on our discussions, observations and the documentation provided,
we determined that the six entities general controls were adequate.

Meeting GPRA and Other Requirements

Our assessment of compliance with GPRA and other related requirements found that:

      1.     the mission statements for ETA’s Division of Adults and Dislocated
             Workers and Division of Trade Adjustment Assistance were process
             oriented and not consistent with the purpose statements in the programs’
             authorizing legislation;

      2.     the external goals, strategies, targets and external performance measures
             for each program were consistent with the program’s purpose(s) but not
             consistent with the existing mission statements which need to be revised;

      3.     internal performance measures had not yet been identified but were
             reported to be under development; and

      4.     the existing linkages between funding and goals and between costs and
             results are not adequate to meet current requirements.




                                           -2-
Recommendations

We recommend the Assistant Secretary for Employment and Training ensure that the
Office of Adults, Dislocated Workers, and TAA take the following actions:

      1.     Revise the mission statements for the Division of Adults and Dislocated
             Workers and the Division of Trade Adjustment Assistance, (see
             Objective 2, page 21);

      2.     Continue the development of internal performance measures for the
             Office of Adults, Dislocated Workers and TAA, and the Divisions of
             Adults and Dislocated Workers, National Emergency Grants, and Trade
             Adjustment Assistance (see Objective 2, page 23); and

      3.     Develop, in conjunction with the Office of Financial and Administrative
             Management and the Office of the Chief Financial Officer, the linkages
             between resources and goals as well as costs and results required by
             current legislation and directives (see Objective 2, page 26).

ETA Direction and Management

Since the audit period included the transition period from program operations under
the JTPA to program operations under the WIA, our assessment of ETA direction and
management included information related to this major transition. We found that the
states we visited were highly complimentary about ETA regional office help. However,
they also expressed concerns about the clarity and consistency of ETA national office
direction and procedures for 1) WIA implementation, 2) national emergency grants,
and 3) TAA and NAFTA-TAA petitions. ETA officials wanted to respond to the
state’s concerns in the context of the draft report. Therefore, the state’s comments and
ETA’s responses are presented in attachment 7.

In implementing the GPRA, we found that ETA has successfully created and
maintained effective intergovernmental cooperation while 1) establishing program
goals, targets and measures, 2) developing and implementing strategies, and 3)
designing monitoring and reporting mechanisms.




                                          -3-
                                 BACKGROUND

Why We Did This Audit

This audit was included in the OIG work plan as a part of a series of audits designed to
assess the quality of compliance with GPRA and other requirements by DOL agencies,
the quality of individual programmatic mission statements, performance goals,
strategies and measures, the reliability of the performance information reported for
DOL programs, and DOL agency direction to the entities on which it relies to promote
program results.

Three Programs Serve Dislocated Workers

During the last 20 years, Congress established three employment and training
programs to address worker dislocations caused by layoffs and plant closings due to
domestic economic cycles and the impacts of international trade. They are the
Dislocated Worker (DW), Trade Adjustment Assistance (TAA), and North American
Free Trade Agreement - Transitional Adjustment Assistance (NAFTA-TAA)
programs.

Federal Program Administration

These three programs are administered by ETA’s Office of Adults, Dislocated
Workers and TAA. Within that office there are three divisions:

      1.     the Division of Adults and Dislocated Workers,

      2.     the Division of National Emergency Grants, and

      3.     the Division of Trade Adjustment Assistance.

The Division of Adults and Dislocated Workers has primary responsibility for the
formula program for dislocated workers under the JTPA and the WIA. The Division
of National Emergency Grants has primary responsibility for the Secretary of Labor’s
discretionary funds for dislocated workers. The Division of Trade Adjustment
Assistance has primary responsibility for the TAA and NAFTA-TAA programs.




                                          -4-
The Dislocated Worker Program

The DW program was initially authorized by Title III of the JTPA (Public Law (P.L.)
97-300, dated October 1982, as amended). The DW program was continued,
beginning on July 1, 2000,by Chapter 5 of WIA (P.L. 105-220, dated August 1998)
beginning on July 1, 2000.

Under the WIA, assistance to dislocated workers is continued through a separately
funded program. Participant eligibility criteria are nearly identical to those under the
JTPA’s DW program, except that the long term unemployed are no longer defined as
eligible dislocated workers. However, displaced homemakers have been elevated in
status from “optional” under JTPA to an eligible target group under WIA. The long-
term unemployed may receive services from WIA’s adult program component.

The DW program is administered by ETA in partnership with the states. For FY
1999, $1.4 billion was appropriated to serve dislocated workers and for FY 2000 the
amount was $1.5 billion.

Adults and dislocated workers obtain core services, such as initial assessment and job
search, through a locally-established one-stop delivery system. Individuals who meet
the definition of "dislocated worker" may be enrolled in the DW program, if they have
not been able to obtain employment after they have received core services and have
been determined in need of more intensive services. Intensive services include
specialized assessments, diagnostic testing, development of an individual employment
plan, and case management for those seeking training.

Eighty percent of the funds appropriated for this program must be allocated among
states according to the legislative formula. JTPA authorizes Governors to allocate
dislocated worker funds among several sets of activities. Up to 40 percent may be
reserved for state activities and substate grantees in need. Up to 10 percent may be
reserved by the Governor for allocation among substate grantees on the basis of need.
A minimum of 50 percent is to be allocated among substate areas based on a formula
prescribed by the Governor.

The remaining 20 percent of the funds appropriated are reserved for the Secretary to
fund the activities including (1) mass layoffs, (2) industry-wide projects, (3) multistate
projects, (4) special projects, and (6) demonstration projects.




                                           -5-
The amounts reserved for use by the Secretary also may be used to provide services
whenever the Secretary determines that an emergency exists with respect to a
distressed industry or a distressed area. The funds may also be used for staff training or
technical assistance and training of rapid response staffs.

The Trade Adjustment Assistance (TAA) and North American Free
Trade Agreement Transitional Adjustment Assistance (NAFTA-TAA) Programs

The TAA Program

The TAA program is a Federal entitlement program established under the Trade Act
of 1974, as amended, and provides aid to workers who lose their jobs or whose hours of
work and wages are reduced as a result of increased imports. The appropriation for the
TAA program was $320 million for FY 1999 and $349 million for FY 2000.

Workers whose employment is adversely affected by increased imports may apply for
TAA. TAA offers a variety of benefits and reemployment services to assist
unemployed workers prepare for and obtain suitable employment. Workers may be
eligible for training, job search and relocation allowances, income support and other
reemployment services. A petition for TAA may be filed by a group of three or more
workers, their unions, or a company official. With DOL certification, workers may
apply for benefits.

The NAFTA-TAA Program

The NAFTA-TAA program is authorized under the NAFTA Implementation Act
(P.L. 103-182, Subchapter D, Section 250, Establishment of Transitional Assistance
Program). The program covers workers who are laid off or who are forced to work
part-time as a direct result of increased imports from Mexico and Canada or of a shift
of U.S. production to those countries. It also covers those that are threatened with job
loss or reduced work hours for those reasons. The appropriation for NAFTA-TAA
was $66 million for FY 1999 and $66 million for FY 2000.

The NAFTA-TAA program provides benefits associated with training, job search,
relocation allowance, and other reemployment services. NAFTA-TAA/TRA can
provide weekly cash benefits. The NAFTA-TAA program is administered by the ETA.
States serve as agents to the Labor Department in administering the program.




                                           -6-
A petition for NAFTA-TAA may by filed by a group of three or more workers, their
employer, union or community-based organization. Investigation of workers’
eligibility under the NAFTA-TAA program is the responsibility of the governor of the
state where the company is located and ETA’s Division of Trade Adjustment
Assistance. With DOL certification, workers may apply for benefits. Petitioning
workers who do not meet the eligibility requirements under the NAFTA-TAA
program have their petition immediately reviewed under the TAA to determine if they
qualify for benefits under the Trade Act.




                                        -7-
                OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The three objectives of this performance audit were to:

        1.     Assess the Federal, state and contractor monitoring over the collection,
               review, editing, compilation and transmission of program information for
               dislocated worker programs, and general controls states have in place
               over the automated systems that process program information for these
               programs;

        2.     Determine whether ETA is in compliance with GPRA and other
               requirements with regard to its administration of these programs; and

        3.     Determine whether ETA has, in administering programs for dislocated
               workers, provided clear and consistent direction and maintained
               intergovernmental cooperation with the other entities on which it relies
               to promote program results.

Scope

Audit work at the Federal level focused on 1) Federal monitoring of programs for
dislocated workers, 2) ETA’s compliance with GPRA and other requirements, and 3)
on the quality of ETA’s direction, assistance and cooperation with the other entities on
which it relies to promote program results.

Audit work in the states focused on state program monitoring policies, practices and
procedures, and the identification and documentation, but not the testing, of the
internal controls over the state systems that process program information for the
three programs. Because the audit was designed to focus on state level data and
systems, the scope did not include any work related to ETA’s national reporting
systems for dislocated worker programs which are the SPIR and TAPR reporting
systems. The period covered by the audit was October 1, 1998 through July 30, 2000.
The five states selected were Pennsylvania, Washington, Utah, Wisconsin, and Texas.

Methodology

The methodology included interviews with staff and the review of documentation in 1) ETA’s Office of
Adults, Dislocated Workers and TAA, Office of Financial and Administrative Management, and Office
of Technology and Information Systems, 2) the offices of Social Policy Research Associates (SPR),
ETA’s contractor, and 3) the state and local offices that operate and monitor each program in five
states selected.



                                                -8-
It also included selecting one high volume dislocated worker local office in each state and tracing a
random sample of individual participant information for about 35 dislocated workers from the state’s
central MIS to the participant’s case file in the selected local office. The sample of dislocated worker
case files audited was composed of approximately 65 percent DW participants and 35 percent TAA
and NAFTA-TAA participants. In addition, we reviewed the authorizing legislation, implementing
regulations, mission statements, and budgets for each program. It also included the review of ETA’s
strategic and performance plans for fiscal years 1999 and 2000. Fieldwork began on May 8 and
concluded on August 17, 2000. This audit was conducted in accordance with the Government
Auditing Standards, applicable to performance audits, issued by the Comptroller General of the United
States.




                                                  -9-
                                      CRITERIA

The primary legislative criteria used for this audit were:

      C      the Chief Financial Officers Act of 1990
      C      the Government Performance and Results Act of 1993,
      C      the Job Training Partnership Act (29 United States Code (U.S.C.) 1501
             et seq.),
      C      the Workforce Investment Act of 1998,
      C      the Trade Act of 1974, as amended (19 U.S.C. 2271-2321),
      C      North American Free Trade Implementation Act of 1993, and
      C      Worker Adjustment and Retraining Notification Act (Public Law 100-
             379-Aug. 4, 1988).

Additional guidance included the following:

      •      Office of Management and Budget (OMB) Circular A-11, Part 2 -
             Preparation and Submission of Strategic and Annual Performance Plans
      •      OMB Circular A-123, Management Accountability and Control, June 21,
             1995
      •      OMB Circular A-130, Management of Federal Information Resources
      •      GAO’s Federal Information System Controls Audit Manual (FISCAM)
      •      Standards for Internal Control in the Federal Government
             (GAO/AIMD-00.21.3.1)
      •      Federal Register, 20 CFR Part 617, Entitled “Trade Adjustment
             Assistance for Workers Under the Trade Act of 1974"
      •      Federal Register, 29 CFR 90, Entitled “Certification of Eligibility to
             Apply for Worker Adjustment Assistance”
      •      Statement of Federal Financial Accounting Standards Number 4,
             Managerial Cost Accounting Concepts and Standards for the Federal
             Government, July 1995
      •      OMB Bulletin No. 00-04, Entitled “Integrating the Performance Plan
             and Budget,” June 2000




                                           -10-
                                            RESULTS

Objective 1

        Assess Federal, state and contractor monitoring over the collection, review, editing,
        compilation and transmission of program information for dislocated worker
        programs, and the general controls states have over the automated systems that
        process program information for these programs.

I. Program Monitoring

In reviewing ETA monitoring policies, practices, and procedures, we found that the quality and quantity
of ETA monitoring had declined during recent years. We also found that ETA had plans to significantly
improve its monitoring. We also found that, although current ETA monitoring and the greatly
expanded and strengthened program monitoring it has planned for dislocated worker programs will
include some program data review and verification, ETA is relying on its large new Data Validity and
Verification Project to provide the broad program data validation needed to support reported program
results.

We found that the primary contractor (SPR) that processes program information for ETA does not do
any direct monitoring of the states, although it does scan and review the information submitted and
work with the states to improve data quality.

In addition, we found that the five states in our sample have monitoring policies, practices and
procedures in place that provide for regular, thorough and comprehensive monitoring of the collection,
review, and editing of program performance information.

Federal-ETA Program Monitoring

DW Program: Although ETA had conducted Federal monitoring of the formula grants for services to
dislocated workers (including program information) in the past, that monitoring had gradually declined
over time. However, ETA regional offices have continued to provide technical assistance and
guidance, and to assist states in resolving program-related problems.

At a recent meeting between the Director of the DW Program and the Regional Office Directors of
Adult Services, agreement was reached that the reinstitution of routine, periodic monitoring of the
formula grants for services to dislocated workers was a top priority. These officials also agreed on the
need for a national monitoring/review guide and process to provide consistency. Plans call for a
national monitoring framework to be in place by the second quarter of FY 2001. During the interim,
since states are now operating the DW program under the WIA, and until the national monitoring guide
and process are finalized, regional offices are using a 90-item checklist dealing primarily with WIA
governance issues, which covers key WIA program components.


National Emergency Grants (NEGs)/National Reserve Grants (NRGs): Twenty percent of the funds
appropriated for the DW program are reserved for the Secretary to fund various special projects,

                                                  -11-
including emergencies in distressed industries or distressed areas. Two types of monitoring reviews are
conducted for every NEG by ETA regional office staff. The first type is a 90-day review of grant
implementation. Later, a midpoint review of grant implementation is conducted. The midpoint
monitoring includes a review of program participant files.

If the national office travel budget and workflow permit, national office staff may also participate. If
there is a problem with the grant project, the national office staff generally does participate. Reports
are prepared for all monitoring reviews and forwarded to the Division of National Emergency Grants
(DNEG). A matrix for the analysis of all monitoring results is being developed by the DNEG for FY
2001. The information in the matrix is expected to provide an overall picture of progress and problems
and may reveal training and/or technical assistance needs.

TAA and NAFTA-TAA Programs: The last comprehensive monitoring guide for the TAA Program
was issued in March of 1991. That monitoring guide did not cover NAFTA-TAA because it was not
yet in existence. However it did provide for a full review of the TAA Program in each state and did
reflect the 1988 amendments to the Trade Act. The guide included a review of the administration of the
program, a specific review of TAA records, and a determination about how effectively the states were
coordinating the TAA program with other programs for dislocated workers.

During the ETA reorganization for the WIA, a brand new limited monitoring guide was developed and
issued for use in January 2000. This guide covers the review of state efforts to validate the TAA and
NAFTA-TAA program performance information which is forwarded to ETA. Since January, all ETA
regions have conducted at least one state review and several have conducted two state reviews. A
working group of national and regional office staff, in consultation with an independent contractor, is
now working to develop a full program monitoring instrument for the TAA and NAFTA-TAA
programs. In addition, the national office is promoting regular “roundtables” where Federal and state
officials responsible for all programs serving dislocated workers can discuss problems, solutions, and
improvements.

ETA’s Data Validity and Verification Project

ETA representatives provided information and documentation about the subject project during the
period of our audit. ETA has undertaken this project in response to GAO’s draft report on the DOL
Annual Performance Plan, and the OIG final report entitled Fair Presentation of Employment and
Training Program Performance. According to the current plans, the data validation and verification
activities, when fully implemented, could provide a valuable and necessary compliment to Federal and
state monitoring of the collection, review, editing, compilation, and transmittal of program performance
information.

ETA has budgeted $850,000 to develop a comprehensive agency-wide data validation and verification
system designed to ensure data integrity and reduce inconsistencies across programs. The primary
focus on the project is on performance data, especially the data used for GPRA measures. It includes
processes for defining reporting requirements clearly and consistently and for verifying reported data.
Although absolute data integrity is not attainable at any cost, ETA plans to achieve a reasonable and
acceptable level of error at a reasonable and sustainable cost.



                                                  -12-
The project is currently under development and is being reviewed and refined by senior management.

The specific goals of the Data Validity and Verification Project are:

        C       improved data quality that relates to WIA goals and outcome measures,
        C       wider access to and more effective use of performance-related data,
        C       more responsive reporting and performance measurement systems through investments
                in technology to provide access to information,
        C       improved coordination of ETA’s WIA performance measurement efforts through the
                use of common specifications, tests, and reviews of state procedures and controls to
                determine if the system is functioning as intended,
        C       specialized analysis and technical assistance where problems are identified, and
        C       additional support for continuous improvement.

Contractor Monitoring

In meetings with SPR, ETA’s contractor for processing state program information for the three
programs covered by this audit, we learned that while SPR does not go out to the states to see how
they collect, review, edit, compile and transmit program information, SPR does screen the information
received from the states to determine whether it is “clean” enough to process. SPR then provides
feedback to the states and Service Delivery Areas (SDAs) on the quality of the data received. If the
data has too much missing information or too many errors, it is returned to the states/SDAs and SPR
provides technical assistance to them to fill in the missing information and correct errors. This allows for
the quality of the program information to be improved before it is processed by SPR.

Program Monitoring by the States

We found that the program monitoring systems and procedures in place in the five states selected for
review had many common characteristics. Among them were the following:

        C       all states, with the exception of Washington and Wisconsin, entered program
                information on line through Personal Computers (PCs) (Washington and Wisconsin
                forward the program information to a data entry person that serves a particular
                geographic area of the state for entry into the automated system),
        C       all states use preformatted screens,
        C       all states have some type of management review of a sample or a percentage of
                program information before it is entered into the Management Information System
                (MIS),
        C       in Washington and Wisconsin, the data entry person also performs an additional review
                of the program information prior to entry into the system,
        C       every state’s system that processes programmatic information has an extensive array of
                automated edit checks,
        C       all states generate exception reports either biweekly, monthly or quarterly, that go to the
                office originating the information for review and resolution,
        C       program information from local offices is compiled by the computer system in each state
                that processes program information,


                                                   -13-
        C       compiled program information for the state is reviewed by the state MIS staff and
                program management staff,
        C       all states forward DW Program participant information to the data contractor annually
                and forward TAA and NAFTA-TAA Program participant information to the contractor
                quarterly,
        C       all states have extensive program monitoring systems and procedures in place,
        C       all states use monitoring guides for all monitoring,
        C       all states generate monitoring reports,
        C       all states have reports reviewed and/or signed by state officials,
        C       all states forward reports to local offices and stakeholders for corrective action where
                needed, and
        C       all states had a state audit function and three of the states reported that their state
                auditors regularly conduct program audits which include the validation of program
                information.

Conclusion

The quality and quantity of ETA monitoring for these three programs overall have declined during
recent years but ETA has plans to significantly improve its monitoring. In addition, ETA is initiating a
long-term project to provide regular and consistent data validation for the program performance
information being reported to ETA by the states.

ETA’s primary contractor (SPR) that processes program information forwarded by the states does not
conduct onsite monitoring of program information collection and processing in the states. However,
SPR does screen and analyze the information submitted by the states and works with the states to
correct errors, obtain missing information and check on any inconsistencies and outliers.


The monitoring policies, practices and procedures in place in the states in our sample provide for
regular, thorough and comprehensive monitoring of the collection, review, and edit of program
performance information. In addition, state program monitoring is supported in each state by the work
of the state auditors. In three of the five states visited,

Washington, Texas and Utah, state monitoring is enhanced by limited data validation and audit activities
performed by the state auditors.

Recommendation

We recommend the Assistant Secretary for Employment and Training ensure that the
Office of Adults, Dislocated Workers, and TAA implement the plans for the
reinstitution and improvement of ETA monitoring of the DW, TAA and NAFTA-
TAA programs in accord with the plans outlined by the Directors of the Division of
Adults and Dislocated Workers, the Division of National Emergency Grants, and the
Division of Trade Adjustment Assistance.

Auditee Response

                                                   -14-
ETA noted that it is developing work plans, which when implemented this year, will
improve the monitoring of dislocated worker programs. These work plans are being
developed by the Office of Adult Services - which includes the Divisions of Adult and
Dislocated Workers, National Emergency Grants, and Trade Adjustment Assistance -
in consultation and coordination with the regional offices of ETA. In general,
monitoring activities planned for the coming year will emphasize performance
monitoring and targeting technical assistance to ensure the achievement of
performance goals.

ETA noted that page 24 of the draft report indicated that the audit period (October
1998-July 2000) was a transition period from JTPA to WIA. In fact, ETA pointed out
that JTPA was going through a close out, and ETA was working to develop WIA
strategic and unified plans and assist states to be ready on July 1, 2000. Thus, ETA
“monitoring” activities were focused accordingly.

OIG Conclusion

The OIG looks forward to the implementation of the work plans to reinstitute and/or
strengthen Federal monitoring of the programs for dislocated workers administered by
ETA. Please provide a description of the national framework for monitoring the
dislocated worker program and copies of the national monitoring/review guide and
process that will provide consistency for the monitoring of the DW program. In
addition, please provide documentation of the matrix for the analysis of all monitoring
results for national emergency grants and a description of the process for identifying
training and technical assistance needs. We request that you also forward a copy of the
full program monitoring instrument for the TAA and NAFTA-TAA programs when
finalized, and a summary report regarding the results of the national office
“roundtables.”

II. Internal Controls Over State Systems

In assessing the internal controls over the state systems that process program information for the three
programs under audit we used the Federal Information System Controls Audit Manual (FISCAM).
The FISCAM is a tool developed by the General Accounting Office (GAO) to assist auditors in
reviewing internal controls over computer-based information systems. The manual is designed for the
evaluation of general controls over information systems that support agency business operations.
General controls are the structure, policies, and procedures that apply to an entity’s overall computer
operations. In particular, the manual aids auditors in evaluating internal controls over the integrity,
confidentiality and availability of data maintained in an entity’s information systems. The manual’s
evaluation components cover the following six areas that auditors need to consider when evaluating an
agency’s general internal controls:

        C       Entitywide Security Program Planning and Management,
        C       Access Control,
        C       Application Software Development and Change Control,

                                                  -15-
        C       System Software,
        C       Segregation of Duties, and
        C       Service Continuity.

Within each of these areas are a series of critical elements necessary to ensure the effectiveness of the
entity’s overall internal control.

In addition to lengthy and detailed interviews with information technology and program operations staff,
we examined documentation provided by each state agency regarding the control policies and
procedures for their current systems. However, we did not test the controls in place to determine their
effectiveness during actual system operation.

We found that all sample states had controls that meet FISCAM standards in place over their existing
systems that handle program performance information. Moreover, all states, with the exception of
Wisconsin, were moving to implement, or had already implemented at the time of our visits, new and
significantly improved program performance information systems to handle program operations under
the WIA. In each case, the state representatives explained how their new systems would be
significantly superior to the old systems as far as system capabilities and reliability are concerned, and
would have even better, state-of-the-art controls. All states were preparing to or had
already abandoned their existing systems except for Wisconsin which indicated that development of
their new system would most likely take another year.


Although Pennsylvania and Wisconsin did not have a formalized process for risk assessment, we found
they do periodically conduct risk assessments during the year. We found that Texas’ Disaster
Recovery Manual did not identify or list the critical and sensitive functions. Further, in the TWC
Emergency Plan and the State of Texas Emergency Plan, a number of pages that should have contained
important information were blank. Steps to prevent and minimize potential damage and interruption
were missing in the Texas DP Disaster Recovery Plan. The Contingency Plan provided by the Texas
Agency was not complete and was not comprehensive. In addition, the TWC was not able to provide
documentation that the Contingency Plan had been tested or that it had been appropriately adjusted
following testing.

Validation of Participant Information to Case Files

In order to determine whether information on individual participants’ characteristics,
histories, services and outcomes was being accurately and timely captured and recorded
by each state’s MIS, we selected a high volume dislocated worker office in each state.

For that one office in each state, we asked the state to produce a computer print out
(from their central MIS) of all information for each DW, TAA, and NAFTA-TAA
participant served by that office. We selected a random sample of approximately 35
participants (about 65 percent DW and 35 percent TAA and NAFTA-TAA program
participants). We compared the information in each participant’s case file with the
information for that participant in the state’s MIS. Aside from very minor clerical
errors, (e.g., selective service status), and occasional changes in forms, we found that

                                                   -16-
the information in each participant’s case file describing what happened to that person
as a program participant exactly matched the information produced by the state’s MIS
for that participant.

Conclusion

Based upon our review of a limited random sample of dislocated worker participant
files in each state and the comparison of file information with the information
recorded in the state’s MIS for that participant, we found that the information in the
sample participant case files exactly matched the information produced by the state’s
MIS for those participants.




                                          -17-
Objective 2

        Is ETA is in compliance with GPRA and other requirements with regard to its
        administration of the DW, TAA, and NAFTA-TAA programs?

Meeting GPRA and Other Requirements

In order to meet GPRA and other requirements:

        I.      ETA program office/division mission statements, need to be consistent
                with the purpose and intended results outlined in the program’s
                authorizing legislation,

        II.     the internal and external performance measures as well as the goals and
                strategies need to be consistent with the authorizing legislation and the
                mission statement, and

        III.    ETA needs to integrate its budget with its Annual Performance Plan so
                that budget authority and outlay estimates are associated insofar as
                possible with each goal, and the budget accounts that finance each goal
                are identified.

I. Program Office/Division Mission Statements

ETA’s Office of Adults, Dislocated Workers, and TAA provides leadership for the design,
development and administration of employment and training services for adults, dislocated workers, and
incumbent workers; pilots, demonstrations, evaluations and research projects; and investigations
relating to TAA. (See ETA organization chart in attachment 3.)

The office is composed of three divisions. They are the Division of Adults and Dislocated Workers, the
Division of Trade Adjustment Assistance, and the Division of National Emergency Grants. The two
divisions that have responsibility for the DW, TAA and NAFTA-TAA program operations are Adults
and Dislocated Workers and Trade Adjustment Assistance.

Based on a comparative analysis of the authorizing legislation with the division’s mission statements
provided by ETA, we found the following:

        1.      The mission statement for the Division of Adults and Dislocated Workers (see
                attachment 4):

                        a) is not consistent with the purposes stated in the Job Training Partnership Act
                        or the Workforce Investment Act which continues the program,
                        b) is process-oriented, and

                        c) does not focus on achieving the intended results of program operations as

                                                  -18-
                        outlined in the authorizing legislation.

        2.      The mission statement for the Division of Trade Adjustment Assistance (see attachment
                5):

                        a) is generally consistent with the purposes stated in the Trade Act,
                        b) is process-oriented, and
                        c) does not focus on achieving the intended results of program operations.

Division of Adults and Dislocated Workers

When comparing the language of the authorizing legislation with the mission statement for the Division of
Adult and Dislocated Worker Programs, we found that the division’s
mission statement was focused on processes, systems, and activities instead of on achieving the
outcomes specified in the authorizing legislation.

While we recognize that ETA does not directly operate programs at the local level, ETA and its
partners remain equally responsible for achieving the intended results specified in the legislation. While
managing strategically, working collaboratively, implementing systems, and administering programs may
be sound internal goals, they are not the intended results Congress specified in the legislation under
which funds were provided to ETA.

Both the JTPA , the original authorizing legislation for the DW Program, and the recent WIA legislation
that replaced the JTPA, have clear statements of purpose and identify specific “results” expected to
occur from program operations as shown below:

        Section 2 of the JTPA states: “It is the purpose of this act to establish programs to prepare
        youth and adults facing serious barriers to employment for participation in the labor force by
        providing job training and other services that will result in increased employment and earnings,
        increased educational and occupational skills, and decreased welfare dependency, thereby
        improving the quality of the work force and enhancing the productivity and competitiveness of
        the Nation.”

        Title I, Subtitle B, Section 106 of the WIA states: “ The purpose of this subtitle is to provide
        workforce investment activities, through statewide and local workforce investment systems, that
        increase the employment, retention, and earnings of participants, and increase occupational skill
        attainment by participants, and, as a result, improve the quality of the workforce, reduce
        welfare dependency, and enhance the productivity and competitiveness of the nation.”


Division of Trade Adjustment Assistance

We found that the division’s current mission statement was focused on processes, systems, and
activities instead of on achieving the outcomes intended to result from program operations.

Section 2101 of the Trade Act of 1974 states its purposes which include “1) fostering the economic


                                                    -19-
growth of and full employment in the United States, 2) harmonizing, reducing and eliminating barriers to
trade, 3) establishing fairness and equity in international trading relations, 4) providing adequate
procedures to safeguard American industry and labor against unfair or injurious import competition,
and assisting industries, firms, workers and communities to adjust to changes in international
trade flows, 5) opening up market opportunities for United States commerce, and 6) providing fair
and reasonable access to products of less developed countries in the United States market.” The
language most relevant to the TAA Program (highlighted above) is found in item 4, i.e., “assisting
industries, firms, workers and communities to adjust to changes in international trade flows.”

The TAA program provides for reemployment services and cash benefits for individuals who have been
separated from employment due to foreign imports. Regulations at 20 CFR Part 90, provide for the
prompt and effective disposition of workers’ petitions for assistance.

The Trade Act of 1974 and the North American Free Trade Implementation Act of 1993 do not
contain statements of purpose and expected outcomes that are as explicit as those presented above for
the JTPA and WIA. This makes the development of an adequate mission statement more challenging.
However, in order to manage for results, the Division of Trade Adjustment Assistance needs a mission
statement that clearly identifies the outcomes/results that the division and its programs were created to
accomplish.

The divisions’ current mission statement itemizes activities and processes that the division is to perform,
but does not identify the outcomes expected and intended to result from these activities and processes.
In fact, one could interpret these statements to mean that ETA has no responsibility for achieving the
results enumerated in the law. While managing strategically, working collaboratively, conducting
investigations, preparing reports, issuing determinations, and developing policies and directives may be
processes necessary to accomplishing the mission, they are not the mission. More specifically, they are
not the outcomes/results for which the program was created or the funds provided. Therefore, we
believe the mission statement for the division needs to be revised to focus ETA employee attention on
their responsibility for achieving the results/outcomes specified in the authorizing legislation.

The OIG recognizes that the primary purpose of an organization’s mission statement is to focus the
efforts of all employees on achieving the specific results/outcomes the

organization/program was created to accomplish, or put more simply, why it exists. We believe that the
current mission statements do not meet that purpose.

Conclusion

The mission statements for the ETA divisions did not articulate the mission or purpose of the respective
programs as stated in each program’s authorizing legislation. Instead, the existing mission statements
were process-oriented and were focused on internal processes rather than the outcomes/results
specified in law. Therefore, the division mission statements were not consistent with the authorizing
legislation’s purpose and were not focused on achieving the intended results of program operations as
outlined in the authorizing legislation.

Recommendation

                                                   -20-
We recommend the Assistant Secretary for Employment and Training ensures that the
Office of Adults, Dislocated Workers, and TAA revise its own mission statement and
the mission statements for the Division of Adults and Dislocated Workers and the
Division of Trade Adjustment Assistance to focus employee attention on achieving the
outcomes specified in the authorizing legislation as intended and expected to result
from these programs’ operation.

Auditee Response

ETA indicated that its Office of Adult Services is consulting with its Office of Human
Resources on the review of mission statements. ETA noted that the reviews
undertaken will be consistent with the agency’s overall initiative to implement Baldrige
principles.

OIG Conclusion

The OIG appreciates the efforts ETA is making to implement Baldrige principles and
anticipates receiving revised mission statements for the Office of Adults, Dislocated
Workers, and TAA, and its divisions, that articulate the mission of these offices’
programs as specified in the legislation that created them. As outlined in law, the
mission of the programs funded under the WIA is to increase the employment,
retention, and earnings of participants, and to increase occupational skill attainment by
participants. The mission of the programs funded under the Trade Act/NAFTA
Implementation Act is to assist workers and communities to adjust to changes in
international trade flows.




                                          -21-
II. Program Performance Goals, Strategies, and Measures

Internal Performance Measures

At the present time, the Office of Adults, Dislocated Workers & TAA, and the
Divisions of Adults and Dislocated Workers, National Emergency Grants, and Trade
Adjustment Assistance, have not formally established internal performance measures.
However, staff reported that internal measures are currently under development.
ETA representatives have concurred with the OIG suggestion that some potential
internal measures could be based on several of the internal processes and activities that
are described in the existing inadequate mission statements for the two divisions that
manage the DW, TAA, and NAFTA-TAA Programs. ETA staff also reported that
time limits of 60 days for making determinations on TAA petitions and 40 days for
making determinations on NAFTA-TAA petitions are embodied in the trade
programs’ legislation and are also included in staff performance standards.

External Performance Measures

We found that the external performance measures for the DW, TAA, and NAFTA-
TAA Programs are adequate and results oriented because they are designed to measure
the intended and expected results of program operations as outlined in the authorizing
legislative language, presented in attachment 6. The external goals and measures for the last
two fiscal years for all three programs are presented in attachment 7.

Strategies

ETA strategies for accomplishing its goals are sound and consistent with the
authorizing legislation as well. For its FY 1999 goals, ETA developed three primary
strategies. First, the agency planned for continuous improvements in the levels and
quality of employment and earnings outcomes for participants by integrating all
available funding sources to support assistance to dislocated and trade-impacted
workers. Second, ETA sought to expand the capacity of the delivery system to provide
responsive, high quality services to participants by: a) supporting capacity building
initiatives, and b) promoting continuous improvement strategies to enhance
performance. Third, ETA sought to improve effectiveness by: a) expanding outreach
efforts to ensure early intervention assistance for all dislocated and trade-impacted
workers, b) issuing timely determinations of worker eligibility to apply TAA for
NAFTA-TAA services and benefits, and c) providing timely oversight to all program
activities.

ETA’s primary strategy for accomplishing its FY 2000 goals is its support for proposed
legislation which will extend TAA adjustment assistance for two years and create a
single consolidated program that would 1) extend eligibility for TAA for workers
affected by shifts of production to any country, 2) increase the cap for training to $150

                                            -22-
million per year, 3) encourage early enrollment in training by establishing a time limit
which workers must enroll in training following certification or date of layoff, 4)
modify waiver-from-training criteria, and 5) establish an adjustment assistance
contingency fund to ensure that resources are available to pay for unexpected increase
in benefit costs to eligible workers.

Conclusion

Currently, internal performance measures for the ETA offices responsible for the
three programs within the scope of this audit do not exist, but are under development.
The external performance goals, strategies, and measures for the three programs that
serve dislocated workers are adequate and results oriented, and are consistent with the
intended outcomes stated in each program’s authorizing legislation. However, they are
not consistent with the two divisions’ mission statements (as discussed in section A
above). As called for in the legislation, the goals and measures focus on maximizing
reemployment and wage replacement through community adjustment, retraining
benefits, and core employment services. The external performance measures show
whether displaced workers are obtaining reemployment, and whether their new jobs
substantially replace the wages they earned prior to their dislocation.

Recommendation

We recommend the Assistant Secretary for Employment and Training ensure that the
Office of Adults, Dislocated Workers, and TAA continue the development of internal
performance measures for itself, and for its divisions of Adults and Dislocated
Workers, National Emergency Grants, and Trade Adjustment Assistance.

Auditee Response

ETA concurred with the recommendation, with the understanding that there are
currently internal measures in effect for both TAA/NAFTA and NEG. ETA noted
that these measures include work processing deadlines stipulated either in legislation
or current policy. Development of comprehensive internal measures for the adults,
dislocated workers and trade programs will occur within the Baldrige organizational
performance framework.

OIG Conclusion

The OIG looks forward to ETA’s implementation of the Baldrige organizational
performance framework and to receiving copies of the formalized internal
performance measures for the Office of Adults, Dislocated Workers, and TAA, and its
respective divisions.




                                          -23-
III. Integrating Program Budgets with Annual Performance Plans

Although for Fiscal Year 2000 ETA has mentioned its budget requests in the
discussion of its performance goals and vice-versa, we found that many of the types of
important linkages between funding and goals called for in recent legislation and OMB
directives have not yet been established for these three programs.

Criteria for Linking Funding and Goals

The Chief Financial Officers Act of 1990 includes among the functions of chief
financial officers “. . . the development and reporting of cost information” and “the
systematic measurement of performance.” The Government Performance and Results
Act of 1993 mandated performance measurement by Federal agencies and established
the framework for “. . . systematically holding Federal agencies accountable for
achieving program results.”

In September 1993, in his report to the President on the National Performance Review
(NPR), the Vice President recommended that the Federal Accounting Standards
Advisory Board issue a set of cost accounting standards for all Federal activities.
Those standards were to provide a method for identifying the unit cost of all
government activities. In July of 1995, the Federal Accounting Standards Advisory
Board issued Statement of Federal Financial Accounting Standards Number 4,
Managerial Cost Accounting Concepts and Standards for the Federal Government.

Managerial Cost Accounting Standard

The cost accounting standard states that in managing Federal government programs,
cost information is essential for performance measurement. The standard also states
that comparing costs with expected benefits will provide feedback to budgets and assist
in controlling and reducing costs and in estimating future costs. In addition, it states
that cost information is necessary in establishing strategic goals and that measuring
and reporting the cost of actual performance against established goals is essential to
assess governmental accountability.

Integrating the Performance Plan and Budget

On June 6, 2000, OMB issued Bulletin No. 00-04, entitled “Integrating the
Performance Plan and Budget.” The Bulletin states, “As a part of preparation for the
FY 2002 Budget, agencies will be asked to submit an integrated Annual Performance
Plan with goals based on current service levels, associating budget authority and outlay
estimates insofar as possible with each goal.” It further states, “Budget authority and
outlay estimates will be associated with the goals, and the budget accounts that finance
them will be identified.”



                                          -24-
The bulletin also states that during the next twelve months, agencies should be taking
steps to build on the progress achieved in implementing the GPRA by:

      1.     integrating performance planning and budgeting,
      2.     budgeting for resources where they are used,
      3.     developing greater organizational accountability for program results,
      4.     improving the content and usefulness of agency strategic and
             performance plans,
      5.     insuring that the annual program performance reports meet GPRA
             requirements and are of satisfactory quality,
      6.     deepening understanding of how results are achieved, and
      7.     using performance measures to improve program management.

Review of DW, TAA, and NAFTA-TAA Budget Documents
Performance Plans, & Performance Report

Budget Documents

In reviewing the budget documents for the DW program, we found that for FY 1999,
no mention was made of the DW program’s performance goals in the program’s budget
justification. However, in the FY 2000 budget documents, the DW goals for
reemployment and wage replacement were mentioned.

For the TAA and NAFTA-TAA programs, the FY 1999 budget documents made no
mention of the two programs’ performance goals. However, in the FY 2000 budget
documents, the TAA and NAFTA-TAA goal for reemployment was mentioned.

Performance Plans

In the performance plans for these programs for FY 1999 and FY 2000, the budget
request for each program was mentioned.

Performance Report

In the FY 1999 performance report, within the discussion of the results of the DW
program, no mention was made of the funding for that program. However, within the
discussion of the results of the TAA and NAFTA-TAA programs, funding was
mentioned.

Conclusion

We noted that ETA has made an initial effort to begin the process of linking resources
with goals by mentioning program goals in the FY 2000 budget documents for these
programs and by mentioning budget requests in the discussion of program goals. Also,

                                          -25-
funding was mentioned in the FY 1999 performance report for the TAA and NAFTA-
TAA programs. However, much remains to be done to establish the types of important
linkages between funding and goals called for in recent legislation and OMB directives.

ETA needs to continue to work toward integrating performance planning and
budgeting and improving its annual program performance reports. For example, in
developing future performance plans, ETA needs to present prior costs as well as
budget requests and outlay estimates with its strategic goals for individual programs.
In addition, in presenting the results of program operations in the annual performance
report, ETA needs to present the costs of the actual, specific results that were achieved
in relationship to each goal. Further, ETA needs to identify the specific budget
accounts that are involved with the strategic goals, and with the actual performance
results.

Recommendation

We recommend the Assistant Secretary for Employment and Training ensures that
ETA and its Office of Adults, Dislocated Workers, and TAA, in conjunction with the
Office of Financial and Administrative Management and the Office of the Chief
Financial Officer, develop the linkages between resources and goals as well as costs and
results required by current legislation and directives.

The Office of the Chief Financial Officer (OCFO) has several pilot projects ongoing
to implement cost accounting at the agency or program level. ETA should work with
the OCFO to develop a managerial cost accounting system for ETA that will enable
ETA to match costs with results. The OIG’s Office of Performance and Financial
Accountability Audits is available to assist in these efforts.

ETA advised that discussions with the OCFO were ongoing to determine how the
OCFO could assist in implementing managerial cost accounting in ETA. ETA elected
not to participate in the early DOL managerial cost accounting pilots because of the
passage of the WIA which caused significant program changes, and because of other
financial management priorities which were of greater immediate concern.

Auditee Response

ETA concurred with the recommendation to integrate its performance plans and
budgets. ETA noted that its Office of Financial Management and Office of the Chief
Financial Officer have agreed to develop two pilot studies that will provide a model
that may be applicable ETA-wide in establishing the linkages called for in the
recommendation.

ETA stated that its looks forward to working with the OIG, specifically in the design
and development of monitoring programs which aim to enhance the total performance

                                          -26-
management, as well as the pilot design to better integrate performance and budget.
ETA believes these initiatives will not only improve performance as defined in WIA,
Sec. 136, Performance Accountability System, but address the spirit and letter of the
Government Performance and Results Act.

OIG Conclusion

The OIG recognizes the initial discussions between ETA’s Office of Financial
Management and the Office of the Chief Financial Officer to develop two pilot
studies. Please provide reports on the implementation and results of the two pilot
studies and on the application of those results on an ETA-wide basis. In addition,
please provide copies of the budget documents and performance plans which reflect the
integration of performance planning with budgeting as described in OMB Bulletin No.
00-04, entitled “Integrating the Performance Plan and Budget” and in other OMB
directives issued prior to ETA’s response.




                                         -27-
Objective 3

      Is ETA providing clear and consistent direction, assistance, and oversight, and
      maintaining intergovernmental cooperation with the entities on which it relies to
      promote program results?

I. Clear and Consistent Direction, Assistance and Oversight

In implementing workforce development programs, including the subject programs,
ETA is responsible for providing 1) clear and consistent direction, 2) assistance, and 3)
oversight to other organizations on which it relies to promote results, while addressing:

      C       the other organizations’ managerial and technical capacity and
              implementation costs,
      C       conditions requiring local or state flexibility, and
      C       any impacts from crosscutting Federal programs.

We found that the states we visited, although highly complimentary about ETA
regional office help, expressed concerns about the clarity and consistency of ETA
national office direction, and about ETA procedures with regard to 1) Workforce
Investment Act (WIA) implementation, 2) national reserve grants/national emergency
grants (NRGs/NEGs), and 3) TAA and NAFTA-TAA petitions. ETA chose to
respond to the concerns expressed by the states. The comments voiced by the states
and ETA’s responses to those comments are included in attachment 7.

It should be noted that since the audit period included the period of transition from
program operations under the JTPA to program operations under the WIA, and at the
specific request of the Director of the Office of Adult Services, our assessment of ETA
direction and management included information about ETA direction to other entities
prior to, during, and subsequent to the transition, on July 1, 2001, from operations
under the JTPA to operations under the WIA.

Providing Clear and Consistent Direction while addressing the other organizations’
managerial and technical capacities and implementation costs:

For JTPA:

      C       ETA’s approach begins with a shared understanding (with the other
              organizations) of the program goals, objectives, and performance
              measures.

      C       Then, ETA issues Training and Employment Information Notices
              (TEINs), Training and Employment Guidance Letters (TEGLs), and
              Field


                                           -28-
           Memoranda (FMs) to program operators to assure consistent policy
           direction.

     C     It reinforces the important policy directions by providing national and
           regional training and conferences.

     C     Finally, it compliments the formal notices and training with interactive
           web pages (US Workforce.Org, and doleta.gov) that provide program
           policy, directions, and frequently asked questions and a bulletin board.
           These web sites also include linkages with Federal, regional, state,
           community-based organizations (CBOs), and related public interest
           groups’ web pages.
For WIA:

     C     ETA has created an intraagency Technical Assistance and Training
           Coordinating Group, which provides long term strategies for addressing
           the system’s technical assistance needs.

     C     ETA uses the normal formal policy announcements and provides specific
           training for high priority areas such as financial training, individual
           training accounts, and consumers’ reports.

     C     Specifically, there is WIA financial reporting training in six regions for
           state and Federal staff from October through November 2000, and
           training in individual training accounts and eligible training providers in
           seven regions from November through March 2002.

     C     ETA is also developing an improved “e-government” design, which will
           include partners to be digitally compatible, promote the use of standards,
           and web based management information systems (MISs).

     C     These actions are expected to provide clear direction for all the major
           stakeholders.

For TAA/NAFTA-TAA:

     C     To match the DW reporting under the WIA, the TAA and NAFTA-TAA
           performance reporting will be revised to use wage records for
           determining reemployment status and wage replacement for terminated
           participants.

     C     DTAA also issues formal guidance to the regions and states in the form
           of TEINs, TEGLs, Field Memoranda (FM), and GALs.

                                        -29-
      C      DTAA reinforces the important policy directions by providing regional
             training and conferences.

      C      DTAA’s web page provides program information, downloadable petition
             forms, information on all investigations, including determinations and
             effective dates, and links to other related Federal, state, and private web
             pages.

Providing Clear & Consistent Direction while addressing conditions requiring local or
state flexibility:

For JTPA:

      C      ETA has provided statutory waivers to the states. When and where states
             believe additional flexibility is needed, they may request waivers from
             statutory and regulatory requirements as described in 20 CFR 661.400.
             Waivers were first used for JTPA in 1996 and were used to improve
             process and outcomes

      C      The process used by ETA is similar to the process used by the
             Department of Health and Human Services (DHHS) in the early stages
             of welfare reform. There are two types of waivers, general and work-flex
             (where states want to give waivers to certain areas or SDAs).

For WIA:

      C      The statute and regulations provide for increased flexibility as one of the
             primary principles of the law; the legislation also provides that states may
             waive Statutory and Regulatory authority to improve the statewide
             systems (20 CAR 661.400).

Providing Clear & Consistent Direction while addressing impacts from crosscutting
Federal programs:

For JTPA:

      C      ETA has used ad hoc workgroups from DHHS, Family Support Services,
             Department of Housing and Urban Development (DHUD), and
             Education to discuss respectively common targeted population, use of
             resources, and sharing reports and studies.




                                          -30-
For WIA:

      C      Under the WIA program, ETA has created an intra-agency Technical
             Assistance and Training Coordination group, (multi Departmental
             group) which provides long term strategies for addressing unified state
             planning, reporting, performance measures, and agreement models for
             sharing resources within the one stop career centers. This group also
             addresses cross cutting issues.
      C      The One-Stop career centers include the Memorandum of Agreements
             from the respective state agencies, which address crosscutting issues,
             resources, and common issues. We trust this will successfully serve our
             customers of all adults, dislocated workers, and youth.

For TAA/NAFTA-TAA:

      C      DTAA maintains close links with other Federal agencies and their
             adjustment assistance efforts. These include the Departments of
             Treasury [Community Adjustment and Investment Program (CAIP) and
             North American Development Bank (NADBANK) program],
             Commerce (Adjustment Assistance for Firms and Industries), and
             Education (coordinate Pell grants with TAA training for import-
             impacted workers).

      C      DTAA also participates in the One-Stop activities, including memoranda
             of understanding, that address crosscutting issues, resources, and common
             issues.

Providing Assistance while addressing the other organizations’ managerial and
technical capacity and implementation costs, conditions requiring local or state
flexibility, and impacts from crosscutting Federal programs:

For JTPA:

      C      ETA’s approach in providing assistance to DW program operators begins
             with the identification of weaknesses in program operations from the
             performance standards, Governors’ Reports and SPIR data.

      C      The ETA national or regional office monitor and/or discuss weaknesses
             with program operators.

      C      After assessing problem areas, the regional offices provide technical
             assistance in a variety of ways:



                                          -31-
             S      providing related states’ experiences,
             S      providing training, and
             S      developing conferences/clinics which address common problems
                    (often reporting) among state or regional areas.

For WIA:

      C      ETA has provided assistance to state and local agencies by planning and
             implementing conferences at the national, regional, and local levels for
             all partners involved. These have included pre-regulation
             discussions/forums, regulation training for all stakeholders, and
             continuing special training and assistance in such areas as financial
             reporting, individual training accounts, consumers report cards, and
             related challenging new aspects of the program.

For TAA/NAFTA-TAA:

      C      ETA’s approach in providing oversight to TAA and NAFTA-TAA
             program operators begins with the identification of weaknesses in
             program operation gleaned from performance reporting and program
             reviews.

      C      After assessing problem areas, the national and regional offices provide
             technical assistance in a variety of ways:
                    –      providing related states’ experiences and best practices
                    –      providing training, and
                    –      developing conferences and roundtables among states and
                           regions

      C      Early in FY 2000, DTAA formed a Trade Act Taskforce of national,
             regional, and state TAA and NAFTA-TAA staff and representatives
             from other related national DOL components to formally address WIA
             integration issued and any shortcomings in current program operations.

Providing Oversight while addressing the other organizations’ managerial and
technical capacity and implementation costs, conditions requiring local or state
flexibility, and impacts from crosscutting Federal programs:

For JTPA:

      C      ETA’s approach in providing oversight for the DW program has used
             primarily the performance standards for the DW program.

      C      The regional offices have used the respective performance standards,

                                          -32-
             Governor’s reports and SPIR data to identify performance needs

             improvement and then, usually work in partnership with the states to
             work through local SDA oversight and assistance.
For WIA:

      C      ETA is developing plans for review and oversight under the general
             direction of the Field Operations staff, in coordination with the
             respective national and regional Adult and DW program staff.

      C      This include reports on the “Status of State/Local WIA Implementation”
             monthly reports, as well as planned reports covering the performance
             accountability measures discussed above.

      C      In addition, ETA is embarking on a “Baldridge Assessment” which is a
             quality improvement program aiming to examine policy direction and its
             deployment for the seven key areas. Many state and local agencies are
             also developing quality initiatives such as the Baldridge program to
             improve oversight, operations, and outcomes.

For TAA/NAFTA-TAA:

      C      ETA’s approach in providing oversight to TAA and NAFTA-TAA
             program operators employs the results of program reviews and
             performance reports to promptly begin any needed corrective action.

      C      Regional office will conduct regular program reviews of their states in
             order to identify performance that needs improvement and provide all
             possible technical assistance and other resources to bring about needed
             improvements.

      C      DTAA is also participating fully in the ETA Baldridge Initiative to
             improve the quality of program performance and participant services
             throughout the TAA/NAFTA-TAA system.

Conclusion

ETA’s approach in providing 1) clear and consistent direction, 2) assistance, and 3)
oversight to the organizations on which it relies to promote results has been generally
successful in most areas. Assistance by the ETA regional offices was praised by the
states. Based on the responses provided by ETA to the comments made by the states
(see attachment 8), ETA is continuing to make improvements in policies and processes
based on such feedback.



                                         -33-
II. Creating and Maintaining Effective Intergovernmental Cooperation

In implementing workforce development programs, including the subject programs,
ETA is responsible for creating and maintaining effective intergovernmental
cooperation with the entities on which it relies to promote program results while:

      C      setting program goals, targets, and measures,
      C      developing and implementing strategies to achieve the goals, and
      C      designing monitoring and reporting mechanisms.

We found that the Office of Adults, Dislocated Workers and TAA, and its operating
divisions, have successfully created and maintained effective intergovernmental
cooperation during these activities

Creating and Maintaining Effective Intergovernmental Cooperation while setting
goals, targets, and measures

For JTPA:

      C      ETA formed a National Stakeholder Group (NSG) to discuss the
             development, review and analysis of ETA’s Strategic Plan. The NSG, in
             turn, created work groups to develop and report suggestions and
             comments regarding the goals, targets and measures used in GPRA and
             annual plans.

      C      ETA regional offices have conducted similar stakeholder meetings on the
             GPRA plan for their region. These meetings then produce draft goals,
             targets and measures or suggest modifications to those proposed.

      C      ETA did not formally place the regions and states under GPRA goals.
             Instead, GPRA goals were announced in the Governors’ Reports for PY
             1996 and 1997 which went out in February/March of the next calendar
             year (CY). However, strategies were discussed with the stakeholders.

For WIA:

      C      ETA has developed an extensive network of partnerships, which have
             been used to develop final Regulations (August 2000), design unified
             planning among agencies, negotiate measures and targets and reporting
             systems, and develop strategies to achieve them. The partnerships include
             related federal agencies, state and local agencies, community-based
             organizations, and public interests groups.




                                         -34-
      C     ETA has developed strategies to achieve WIA’s 17 performance measures
            in a partnership manner -- for the measures where some baseline data
            exists, target retention and wage measures were negotiated with
            stakeholders for three years. For the measures without prior baseline
            data, FY 2000 will serve as the baseline year for those measures. Stretch
            goals have been established calling for a one-to-two percent increase over
            prior performance.

      C     ETA has developed “desired performance levels’ for FY 2004" for adult,
            DW and TAA programs, in selected wage and retention measures, which
            will be adjusted based upon the agreed negotiated levels with the state
            agencies for PY 2000. These are recorded in DOL’s Strategic Plan 1999-
            2004.


For TAA/NAFTA-TAA:

      C     ETA has based the TAA and NAFTA-TAA goals for Fiscal Years 1999
            and 2000 on JTPA Title III goals since a) prior to FY 1999, TAA and
            NAFTA-TAA did not collect performance information, and b) the Title
            III dislocated worker goals represented a reasonable starting point for the
            trade-related programs, which also served dislocated workers.

Creating and Maintaining Effective Intergovernmental Cooperation while
developing and implementing strategies to achieve the goals

For JTPA:

      C     ETA formed a NSG to discuss the development, review and analysis of
            ETA’s Strategic Plan. The NSG, in turn, created work groups to develop
            and report suggestions and comments regarding the means and strategies.

      C     ETA had regional offices conduct similar stakeholder meetings on the
            GPRA plan for their region. These meetings then produce draft means
            and strategies or suggest modifications to those proposed.

For WIA:

      C     ETA developed extensive collaboration with the public interest groups,
            community based organizations, and state and local agencies on the
            strategies soon after the Law was passed in August 1998.


      C     ETA conducted national, regional and partnership meetings, workshops,

                                        -35-
            and clinics to develop common strategies for best practices and unique
            strategies for their respective localities.

Creating and Maintaining Effective Intergovernmental Cooperation while designing
monitoring and reporting mechanisms

For JTPA:

      C     JTPA had three basis vehicles for monitoring and reporting results; the
            first was the JTPA performance standards, second was the “Governor’s
            Report Cards,” and the third was the development and deployment of the
            SPIR data book for national, state/local SDA results.

      C     ETA implemented Section (106(a)) of the JTPA by designing and
            implementing sophisticated regression-based performance standards for
            the 640 SDAs, for adult and dislocated worker programs. These standards
            were locally adjusted by social/economic variables to provide
            accountability and cost effectiveness without undue federal intervention.
            SDAs had to meet or exceed its performance standards to be eligible for
            incentive awards; conversely, those SDAs which did not meet them for a
            certain period were required to have special technical assistance or
            reorganization.

      C     For the past few years, ETA complemented the performance standards
            by working in partnership with a steering committee of state staff to
            develop the comparison of all 640 local offices’ results, as adjusted by the
            regression model. This enabled the local, state and Federal staff to
            monitor and review programs to see how each local ranked nationally
            with other local SDAs.

      C     Finally, ETA distributed SPIR reports in hard cover, and CD ROM,
            covering participant services and outcome information for national,
            state/local SDAs. ETA also published the outcomes in the Secretary’s
            Employment and Training Report for the Congress, annually.

For WIA:

      C     ETA has gone through an extensive process of stakeholder consultation in
            regards to the WIA reporting system including that for dislocated
            workers. This process began with a series of stakeholder meetings that
            culminated in the publication of a consultation paper which was issued in
            March 1999. ETA continued with a public meeting with WIA early
            implementing states and other interested states in May 1999. ETA
            continued development of the WIA measures in consultation with the

                                         -36-
             early WIA implementation states through several meetings in 1999 and
             2000. This process continues with recent meetings in September 2000
             with partners such as National Governors’ Association, National
             Association of Counties, etc. to examine state reporting policy and
             requirements.

      C      WIA incentives and sanctions’ requirements are specified in 20 CFR
             666.200. ETA has distributed formal guidance on the procedures
             required to meet the requirements of the statute and regulations. ETA is
             developing a program monitoring and review process that takes into
             account the specific needs of the respective states. The regional Offices
             of Adult Services have the lead role in the monitoring and reporting on
             results.

      C      In addition, ETA has in place a data validity and verification project, with
             a contractor on board, that is addressing data validity among many WIA
             title I programs.

      C      Finally, ETA will be relying on the state UI wage records system to
             provide key required outcome measures for the first time. This should
             improve the objectivity and reliability of the data.

For TAA/NAFTA-TAA:

      C      To match the DW reporting under the WIA, the TAA and NAFTA-TAA
             performance reporting will be revised to use wage records for
             determining reemployment status and wage replacement for terminated
             participants.

      C      TAA and NAFTA-TAA participant data reporting will also come under
             the ETA data validity project mentioned above.

Conclusion

Through the actions and practices described above, ETA has created and maintained
effective intergovernmental cooperation in 1) establishing goals, targets and measures,
2) developing and putting in place means and strategies to achieve the goals, and 3)
monitoring and reporting on results.




                                          -37-
ATTACHMENTS
FEDERAL INFORMATION SYSTEM CONTROLS AUDIT MANUAL (FISCAM)                       ATTACHMENT - 1
GENERAL CONTROLS THAT HELP ENSURE PROPER SYSTEM OPERATIONS                               Page 1
CHAPTER 3, SECTION 1 - ENTITYWIDE SECURITY PROGRAM PLANNING AND MANAGEMENT (SP)


                                           PA           WA         WI          UT          TX
                                         Are         Are         Are         Are         Are
                                      Controls in Controls in Controls in Controls in Controls in
                                        Place?      Place?      Place?      Place?      Place?
           Critical Elements          Yes   No      Yes   No   Yes   No   Yes    No    Yes   No                                     Comments

                                                X   X                X     X           X            The Pennsylvania and Wisconsin agencies do not have formalized
SP-l Periodically assess risks
                                                                                                    procedures for risk assessments on a regular basis, but these states
                                                                                                    periodically conduct informal risk assessments.

                                       X            X          X           X           X            Although no state agency was familiar with the requirements of OMB
SP-2 Document an entity-wide                                                                        Circular No. A-130, and no state agency had assembled in one single place
security program plan                                                                               all of the documents comprising an entitywide security program plan, all
                                                                                                    state agencies had developed and documented the individual components
                                                                                                    of an entitywide security program plan.

SP-3 Establish a security              X            X          X           X           X
management structure and clearly
assign security responsibilities


SP-4 Implement effective security-     X            X          X           X           X
related personnel policies


SP-5 Monitor the security program's    X            X          X           X           X
effectiveness and make changes as
needed


Overall assessment of entity-wide      X            X          X           X           X
security program planning and
management
FEDERAL INFORMATION SYSTEM CONTROLS AUDIT MANUAL (FISCAM)                                                  ATTACHMENT - 1
GENERAL CONTROLS THAT HELP ENSURE PROPER SYSTEM OPERATIONS                                                          Page 2
CHAPTER 3, SECTION 2 - ACCESS CONTROL (AC)



                                           PA          WA          WI          UT            TX
                                         Are         Are         Are         Are         Are
                                      Controls in Controls in Controls in Controls in Controls in
                                        Place?      Place?      Place?      Place?      Place?
          Critical Elements                                                                         Comments
                                      Yes   No    Yes   No    Yes    No   Yes       No   Yes   No

AC-l Classify information resources
according to their criticality and     X           X           X           X             X
sensitivity

AC-2 Maintain a current list of
authorized users and their access      X           X           X           X             X
authorized

AC-3 Establish physical and logical
controls to prevent or detect          X           X           X           X             X
unauthorized access

AC-4 Monitor access, investigate
apparent security violations, and      X           X           X           X             X
take appropriate remedial action

Overall assessment of access
controls                               X           X           X           X             X
FEDERAL INFORMATION SYSTEM CONTROLS AUDIT MANUAL (FISCAM)                       ATTACHMENT - 1
GENERAL CONTROLS THAT HELP ENSURE PROPER SYSTEM OPERATIONS                               Page 3
CHAPTER 3, SECTION 3 - APPLICATION SOFTWARE DEVELOPMENT AND CHANGE CONTROL (CC)


                                          PA        WA            WI          UT           TX
                                        Are         Are         Are         Are         Are
                                     Controls in Controls in Controls in Controls in Controls in
       Critical Elements               Place?      Place?      Place?      Place?      Place?
                                                                                                   Comments
                                     Yes   No    Yes   No    Yes    No   Yes    No    Yes   No

CC-l Processing features and
program modifications are properly    X           X           X           X            X
authorized

CC-2 Test and approve all new and
                                      X           X           X           X            X
revised software

CC-3 Control software libraries
                                      X           X           X           X            X

Overall assessment of application
software development and change       X           X           X           X            X
control
FEDERAL INFORMATION SYSTEM CONTROLS AUDIT MANUAL (FISCAM)                                                   ATTACHMENT - 1
GENERAL CONTROLS THAT HELP ENSURE PROPER SYSTEM OPERATIONS                                                           Page 4
CHAPTER 3, SECTION 4 - SYSTEM SOFTWARE (SS)



                                            PA          WA          WI          UT            TX
                                          Are         Are         Are         Are         Are
                                       Controls in Controls in Controls in Controls in Controls in
                                         Place?      Place?      Place?      Place?      Place?
          Critical Elements                                                                          Comments
                                       Yes   No    Yes   No    Yes    No   Yes       No   Yes   No

SS-l Limit access to system software    X           X           X           X             X



SS-2 Monitor access to and use of       X           X           X           X             X
system software


SS-3 Control system software            X           X           X           X             X
changes


Overall assessment of system            X           X           X           X             X
software
FEDERAL INFORMATION SYSTEM CONTROLS AUDIT MANUAL (FISCAM)                                                                                     ATTACHMENT - 1
GENERAL CONTROLS THAT HELP ENSURE PROPER SYSTEM OPERATIONS                                                                                             Page 5
CHAPTER 3, SECTION 5 - SEGREGATION OF DUTIES (SD)

                                            PA          WA          WI          UT            TX
                                          Are         Are         Are         Are         Are
                                       Controls in Controls in Controls in Controls in Controls in
                                         Place?      Place?      Place?      Place?      Place?
          Critical Elements                                                                                                         Comments
                                       Yes   No    Yes   No    Yes    No   Yes       No   Yes   No

SD-l Segregate incompatible duties
and establish related policies          X           X           X           X             X


SD-2 Establish access controls to                                                                    Also see chart 3-2 entitled Access Control (AC) and chart 3-5 entitled
enforce segregation of duties           X           X           X           X             X          Segregation of Duties (SD)


SD-3 Control personnel. activities                                                                   Also see chart 3-1 entitled Entitywide Security Program Planning and
through formal operating procedures                                                                  Management, Item SP-4 – security-related personnel policies.
                                        X           X           X           X             X
and supervision and review


Overall assessment of segregation of
duties                                  X           X           X           X             X
FEDERAL INFORMATION SYSTEM CONTROLS AUDIT MANUAL (FISCAM)                                                                  ATTACHMENT - 1
GENERAL CONTROLS THAT HELP ENSURE PROPER SYSTEM OPERATIONS                                                                         Page 6
CHAPTER 3, SECTION 6 - SERVICE CONTINUITY (SC)


                                         PA           WA          WI          UT          TX

                                        Are         Are         Are         Are         Are
                                     Controls    Controls in Controls in Controls in Controls in
            Critical Elements        in Place?     Place?      Place?      Place?      Place?
                                     Yes   No    Yes    No   Yes    No   Yes       No   Yes    No                             Comments

SC-l Assess the criticality and                                                                     In Texas’ DP Disaster Recovery Manual dated 5/17/00, the page(s)
sensitivity of computerized                                                                         listing critical or sensitive functions were blank and these functions
                                     X            X           X           X                    X
operations and identify supporting                                                                  were not identified. Also, in the TWC emergency plan and the State of
resources                                                                                           Texas emergency plan, a number of pages were left blank.

SC-2 Take steps to prevent and                                                                      These steps were not included in the Texas DP Disaster Recovery Plan
minimize potential damage and                                                                       provided. Some steps were included in the Texas Emergency Plan that
                                     X            X           X           X                    X
interruption                                                                                        was provided.


SC-3 Develop and document a                                                                         The contingency plan provided by the Texas agency was not complete
comprehensive contingency plan       X            X           X           X                    X    and was not comprehensive.


SC4 Periodically test the                                                                           The Texas Workforce commission was not able to provide
contingency plan and adjust it as                                                                   documentation to show that the contingency plan had been tested or
                                     X            X           X           X                    X    that it had been adjusted following testing.
appropriate


Overall assessment of service                                                                       On the basis of the above weaknesses, we determined that Texas’ plans
continuity                           X            X           X           X                    X    for service continuity were not adequate.




                                                                                                                                                     Attachment 2
                                                                      Attachment 3

                                MISSION STATEMENT


            THE DIVISION OF ADULTS AND DISLOCATED WORKERS



The Division of Adults and Dislocated Workers’ mission statement is to contribute to:
implementing a national workforce system that provides America’s workers, including
youth that have recently entered or are about to enter the workforce, with the
information, advice, job search assistance, income maintenance, and training they need
to get and keep good jobs, which involves employers and labor in defining the needs of
the system, and which provides employers with skilled workers; managing strategically
in order to ensure high performance by program operators, greater public
accountability, service quality, and customer satisfaction; and working collaboratively
with partners and stakeholders in business, labor and state, and local governments by:
designing, developing, and administering employment and training services for adults,
dislocated workers, and incumbent workers; designing, develop and administer pilots,
demonstrations, evaluations, and research projects; and working collaboratively with
Office of Adult Programs’ - Division of Systems Support (OAP - DSS) in the
development of strategic plans and budgets, regulatory interpretation and policy
guidance, performance management and continuous improvement systems and
initiatives, technical assistance strategies, and customer service strategies to promote
achieving results and customer satisfaction.
                                                                                Attachment 4

                                     MISSION STATEMENT


               THE DIVISION OF TRADE ADJUSTMENT ASSISTANCE



The Division of Trade Adjustment Assistance (TAA)’s mission statement is: to implement a national
workforce system that provides America’s workers, including youth that have recently entered or are
about to enter the workforce, with the information, advice, job search assistance, and training they need
to get and keep good jobs, which involves employers and labor in defining the needs of the system, and
which provides employers with skilled workers. Manage strategically in order to ensure high
performance by program operators, greater public accountability, service quality and customer
satisfaction; and work collaboratively with partners and stakeholders in business, labor and state and
local governments by: carrying out the Office of Adult Programs’ responsibilities under the Trade Act of
1974 including the conduct of investigations, preparation of reports and issuance of determination, as
well as the development of policies and directives regarding the delivery of services to workers
adversely affected by trade.
                                                                               Attachment 5

                             EXPECTED PROGRAM RESULTS
                   AS OUTLINED IN AUTHORIZING LEGISLATION



The intended results of the DW program as outlined in law:

       JTPA: “...that will result in increased employment and earnings, increased
       educational and occupational skills, and decreased welfare dependency, thereby
       improving the quality of the work force and enhancing the productivity and
       competitiveness of the Nation.”

       WIA: “...that increase the employment, retention, and earnings of participants, and increase
       occupational skill attainment by participants, and, as a result, improve the quality of the
       workforce, reduce welfare dependency, and enhance the productivity and competitiveness of
       the Nation.”

The intended results of the TAA & NAFTA-TAA programs as outlined in law:

       Trade Act: “to provide adequate procedures to safeguard American industry and labor against
       unfair or injurious import competition, and to assist industries, firms, workers and communities
       to adjust to changes in international trade flows.”
                                                                         Attachment 6

                   PERFORMANCE GOALS AND MEASURES
               FOR THE DW, TAA, AND NAFTA-TAA PROGRAMS


The DW Program:


     FY 1999 Performance Goals:

     C     74% of program terminees will be employed at an average replacement wage of 93%
           at termination, and
     C     76% will be employed one quarter after program exit at an average wage replacement
           rate of 97%.

     FY 1999 Performance Measures:

     C     Percentage of program terminees employed
     C     Wage Replacement Rate (Average wage after terminating the program as a % of
           previous wage)
     C     Percentage of individuals reemployed one quarter after terminating the program
     C     Wage Replacement Rate (Average wage one quarter after terminating the program as a
           % of previous wage)

     FY 2000 Performance Goals:

     C     75% of individuals leaving the program will be employed, in good jobs paying an
           average of 93% of previous wage, and
     C     76% will be employed one quarter after leaving the program in jobs paying an average
           of 97% of previous wage.

     FY 2000 Performance Measures:

     C     Percentage of individuals reemployed after exiting the program.
     C     Wage Replacement Rate (Average wage after exiting the program as a % of previous
           wage).
     C     Percentage of individuals reemployed one quarter after exiting the program.



                                            -2-
     C     Wage Replacement Rate (Average wage one quarter after exiting the program as a %
           of previous wage)

TAA & NAFTA-TAA Programs

     FY 1999 Performance Goal:

     C     72% of program participants will be reemployed at termination.

     FY 1999 Performance Measure

     C     percentage of program participants who terminated during FY 1999 who were
           reemployed at termination.

     FY 2000 Performance Goals:

     C     72% of program participants will be reemployed at termination, and
     C     program participants who terminate will achieve, on average, at least 80% of their pre-
           separation wage.

     FY 2000 Measures:

     C     percentage of program participants who terminated during FY 2000 who were
           reemployed at termination, and

     C     average wage at termination as a percentage of the average wage at qualifying
           separation.




                                                                            Attachment 7
                          STATE COMMENTS ON
                 ETA DIRECTION, ASSISTANCE, & OVERSIGHT
                          WITH ETA RESPONSES



Comments from States Grouped by Subject


During the audit team’s visits to the states, each state agency was offered the
opportunity to provide comments and/or recommendations to ETA about the clarity
and consistency of the direction ETA provides as well as the assistance and oversight it
provides.


The following are the statements made by state representatives in the five states
included in our sample. In some cases, more than one state provided the same
comment and/or recommendation. ETA chose to respond to each state comment
within this report. Therefore, following each state comment, is the response to that
comment provided by ETA.

Regional Office Support


State Comment:      “Support and assistance from ETA regional offices has been
                    strong, very welcome, and much appreciated.”


ETA Response:       None



Common Definitions/Reporting Requirements


State Comment:      “ETA promised reporting requirements and common definitions
                    with the new legislation (WIA). However,


                    C      the reporting requirements were issued too late for early
                           WIA implementers since they were already operating under
                           WIA, and


\


                                           -2-
                 C      the common definitions that would have greatly facilitated
                        accountability and flexibility have not been issued.”


ETA Response:    ETA was reluctant to issue more formal reporting requirements
                 during the interim final regulations which were relevant during the
                 early states’ WIA implementation. It preferred to wait until after
                 the Final Regulations were issued. This would enable the
                 state/local agencies, and the multiple partners to comment on
                 these issues, before final decisions were made. Negotiations with
                 partners, although time consuming, is expected to provide a better
                 performance system in the long run.

                 ETA and its partner programs have compiled the “Unified Plan,
                 Planning guidance for State Unified Plan under Section 501 of the
                 WIA” as a means for states to integrate program planning. The
                 next step is to examine reporting systems for common definitions
                 that could simplify multi-agency reporting. However this remains
                 complex because of specific legal requirements in the respective
                 programs.



National Emergency Grants (NEGs)


State Comment:   “ETA direction is not always clear. ETA policy on NEGs is not
                 always written (and therefore not known) and the basis for some of
                 the areas questioned cannot be found in law. However, the
                 primary issue with NEGs is not in the application process or the
                 items ETA will not fund. It is in the processing time for new
                 applications, and especially for modifications.”


ETA Response:    ETA policy guidance on NEG grant applications, standards, and
                 policy is clear and broadly available to eligible applicants. This
                 guidance is available from regulations implementing the WIA and
                 from ETA national and regional offices.
                                        -3-

                 The final rules and regulations which set policy guidance for the
                 NEG grants is found at 20 CFR Part 671 as published in the
                 Federal Register on Friday, August 11, 2000. These regulations
                 are comprehensive in defining the basic policy framework for
                 NEG grants. However, NEGs are funded through the Secretary of
                 Labor’s discretionary account and, as a matter of law, the Secretary
                 is given broad discretion and flexibility in determining the
                 standards that govern NEG grant awards, in general, and the terms
                 and conditions that may apply to an award decision in a specific
                 case. Thus NEG guidance should not be expected to be exhaustive
                 and the items that are fundable under the NEG program may
                 change over time. Grant requirements can change in response to
                 Secretarial priorities and every application holds the potential of
                 requiring guidance that is specific to the questions or issues that it
                 raises.

                 With respect to processing times for new applications and grant
                 modification requests, the NEG program is currently meeting its
                 processing time standard for new applications and significant
                 progress continues in reducing the processing time for grant
                 modifications. The processing time standard calls for processing
                 new grant applications in 45 days and grant modification requests
                 in 30 days. The comment may have referred to processing times
                 prior to July 2000 when a successful effort to reduce the backlog
                 was undertaken.


                 The Office of Adult Services (OAS) is taking steps to use
                 computer-based technology to enhance process management as
                 part of an ETA Baldrige quality initiative. Additional staff are
                 also being hired. Reduced processing times and better case
                 management are expected to result from the use of technology and
                 access to additional staff time.


State comment:   “There seems to be no consistent guidance or template for NEGs
                 which causes numerous problems with the resulting differences.”
                                       -4-

ETA Response:    The above response is applicable to this comment. Further, ETA’s
                 regional office and the OAS at the national level are available to
                 applicants to clarify issues of grant policy or application
                 procedures. The OAS is unaware of grant award decisions that
                 contradict, or could be perceived as contradicting, a consistent
                 application of NEG policy and procedures.

State Comment:   “The criteria for awarding NEG funds and NEG administrative
                 procedures are no longer clear. It is imperative that ETA issue
                 new NEG guidelines developed in the spirit of WIA quickly. At
                 present, obtaining and using NEG funds is problematic due to
                 processing delays and policy confusion.”


ETA Response:    As indicated in response to other similar state comments, the
                 criteria for awarding NEG funds and the administrative
                 procedures governing the review of new applications and grant
                 modifications are clear and can be found in the WIA’s
                 implementing regulations and in the guidelines which applied to
                 applications under the National Reserve Account (NRA)
                 program. NRA guidelines have
                 been extended to apply temporarily to the NEG program until the
                 development of NEG guidelines is concluded. ETA regional
                 offices have been informed of the extension of NRA guidelines
                 and have been requested to inform prospective applicants.

                 The fact that 19 new applications and 80 grant modification
                 requests have been received since July 1, 2000, the effective date
                 of the WIA and the NEG program, indicates that states are aware
                 of and are using appropriate guidelines.


                 A Federal-State work group has met to consider what updating of
                 the program’s guidelines is required to conform with the WIA’s
                 principles and purpose. The group will continue its work during
                 the first quarter of calendar year 2001. The new guidelines are
                 expected to be issued in June 2001.
State Comment:   “ETA should move to incremental funding of all NEGs.”

                                        -5-


ETA Response:    ETA has, in fact, funded NRA and NEG grants incrementally for
                 more than a decade.


State Comment:   “Although emergency grants generally have a two week
                 turnaround, getting funds for “Rapid Response” can take up to
                 nine months and averages 3-6 months. The prevailing question is,
                 “Will the client still be there when the rapid response funds are
                 received?”


ETA Response:    The commentator appears to equate “rapid response” with the
                 training and related services provided to dislocated workers
                 through NEG grants in cases of plant closings and mass layoffs.
                 Pursuant to the WIA and JTPA, “rapid response” is a required
                 activity assigned by law to the state. “Rapid response” must occur
                 before an applicant can apply for NEG funds and are timed for
                 delivery very early in the dislocation event.


                 “Rapid response” activities are primarily informational, designed
                 to give dislocated workers information about the range of
                 workforce
                 development services available to them and how to gain access to
                 those services. “Rapid response” services do not involve the
                 delivery of training services. Training services and related services,
                 for those who need them to become re-employed, can be funded
                 through NEG grants when local formula funds are insufficient to
                 meet the demand for training.


                 Funding for “rapid response” is reserved by the state out of its
                 dislocated worker formula allotment. The provision of “rapid
                 response” services may be by the state, local, or contractor staff.


                 “Rapid response” activities are not an allowable funding activity
                 under NEG. The Governor can elect to use the state’s
                 discretionary funding to start services.
                                       -6-

                 Funding for training and re-employment services associated with
                 worker dislocations that occur because of plant closings, mass lay-
                 offs and emergencies created by natural disasters are funded from
                 resources reserved to the Secretary of Labor. Thus “rapid
                 response” and NEG grants have different funding sources.

                 The prevailing standard for processing NEG applications that
                 request funds to provide services in response to a plant closing or
                 mass lay-off is 45 days from the receipt of the application by the
                 OAS. The standard for the OAS/NEG office is to forward the
                 recommendation to the Secretary within 30 days from receipt of a
                 complete application.



The WIA

State Comment:   “Linking incentive funds or loss of funds to performance is a good
                 idea.”


ETA Response:    Regulations at 20 CFR Part 66 address this issue in detail.


State Comment:   “Under WIA, new systems should be designed starting with the
                 customer and working back from there, not the opposite
                 approach.”

ETA Response:    Regulations at 20 CFR Parts 652 and Parts 660 through 671
                 provide policy framework for the WIA Principles listed in the
                 regulation’s Section I, Background. “The reformed system is
                 intended to be customer-focused, to help Americans access the
                 tools they need to manage their careers...” In addition, the
                 national office, within the Workforce Excellence Program is
                 initiating the Baldrige Program to assure that the focus is on the
                 customer.


State Comment:   “ETA national and regional offices need to explore new leadership
                 models for implementing the new public policies under WIA.”
                                        -7-

ETA Response:    WIA is a decentralized program with strong roles for local and
                 state boards and the private sector; thus WIA is looking for strong
                 local and state models for leadership within the framework of
                 national pilots and demonstrations.


State Comment:   “Written requests to ETA for clarification of WIA performance
                 issues have gone unanswered.”


ETA Response:    ETA’s regional and national offices intend to respond to issues in a
                 rapid and effective manner. However, when responding to policy
                 issues such as performance, the issue is often more complex than
                 originally understood. This requires staff work in consultation
                 with the participant state/local agency, research and
                 recommendations, and finally Policy Council review and approval.


State Comment:   “The negotiation process to establish WIA levels of performance is
                 somewhat frustrating. The national ETA office apparently
                 provides “ranges” of acceptable performance to regional ETA
                 officials who cannot share such “ranges” with the states. When the
                 states have actual data on which to base future levels of
                 performance, they are rejected. If ETA is serious about partnering
                 with the states to provide exceptional service to job seekers, they
                 should be forthcoming in sharing boundaries imposed on them
                 with their partners. After all, states disclose all data to ETA prior
                 to negotiations. Can ETA do the same?”


ETA Response:    The negotiation process with limited actual, empirical experience
                 has proven challenging to all parties concerned. With experience
                 and feedback from the states/local offices, ETA expects that the
                 process will be improved over time.
                                        -8-

TAA and NAFTA-TAA Petitions


State Comment:   “Regarding TAA petitions, when you have overlapping time
                 periods, it would be much better if ETA amended one of the
                 petition’s time periods to conform to the other – or start the
                 subsequent petition when the original petition runs out, because
                 with two different time periods, the administration of benefit
                 payments becomes a nightmare. Why should the time periods be
                 different when it is the same employer and the same work.”


ETA Response:    For all petitions received, there is a formal screening process that
                 identifies other petitions and investigations that relate to the same
                 worker group. This screening process includes both programs,
                 TAA and NAFTA-TAA. This process has been in place for over
                 four years. If there happens to be a determination issued that
                 overlaps a previous determination for the same worker group, that
                 is a result of simple human error, not a systematic problem. In any
                 such rare case, the state or region should notify the national office.
                 The later determination will promptly be amended to eliminate
                 the overlap.


State Comment:   “All certifications should be sent to the states. Currently NAFTA-
                 TAA certifications are faxed to the states but trade certifications
                 are sent to the ETA regions. With the lag times in forwarding
                 from the regions to the states, the states are often the last to know
                 when a petition has been certified.”


ETA Response:    It is already a significant burden on staff time and resources to
                 send the NAFTA-TAA determinations to the states. Also, we
                 need to rely on our regional partners to help us administer the
                 programs, and forwarding the TAA determinations to the states is
                 one such function. Finally, we are timely posting all determination
                 documents, both TAA and NAFTA-TAA on our website so states
                 and any other interested parties may obtain these documents
                 themselves.
                                        -9-

State Comment:   “ETA needs to look at the timing of certification determinations
                 and continue to work toward making simultaneous determinations
                 for TAA and NAFTA-TAA.”


ETA Response:    This comment may contradict a recommendation from a recent
                 GAO study that DTAA take steps to improve the timeliness of
                 petition determinations. Moreover, focusing on making
                 simultaneous determinations for matching TAA and NAFTA-
                 TAA investigations can result in one or the other exceeding the
                 statutory time limit.


State Comment:   “ETA asks the states at the end of the year to spend NAFTA-TAA
                 funds rather than TAA funds for workers who have been certified
                 eligible under both petitions. Instead, there should be a clear
                 directive issued that this is permissible throughout the program
                 year.”


ETA Response:    This comment is one we don’t quite understand. DTAA allocates
                 both TAA and NAFTA-TAA funds to the states. The states
                 expend the funds according to the law, the regulations, and
                 applicable directives. DTAA does not require states to spend
                 particular funds at particular times of the year.


State Comment:   “ETA should propose and obtain legislation that makes the
                 following change:


                        The initial first year UI benefit claim should be exhausted
                        before a client can draw TRA. If the participant re-
                        qualifies for UI in a subsequent benefit year, they should
                        have the option of drawing TRA or UI because in many
                        cases the UI benefit is so low that the client cannot sustain
                        him/herself in training and their reemployment plan fails.”


ETA Response:    This is a comment that the national office has not heard before. In
                 order to obtain such legislation, ETA would have to pursue not
                 only legislation that amends the Trade Act, but also legislation
                   that

                                          -10-

                   amends both Federal and state UI laws, which would require a
                   tremendous effort to correct what is evidently a rare and minor
                   problem.


State Comment:     “ETA should make the quarterly 563 reports for each petition
                   cumulative instead of for that quarter only.”


ETA Response:      We are often required to provide reports derived from the 563
                   data on a quarterly basis. The reporting requirements for the 563
                   are driven by the need for current program data for internal
                   management and budget projection purposes and to respond to
                   frequent requests from Congress and the Administration for
                   detailed, timely information.



Clear, Consistent Direction/Regulations


State Comment:     “There is a lack of clear direction from ETA often accompanied by
                   sudden and significant changes in direction.”


ETA Response:      See overall response below.


State Comment:     “Continuous improvement is needed regarding the quality and
                   clarity of regulations.”


ETA Overall
Response:          ETA does not know the specifics of the lack of direction issue. The
                   basic policy themes published in Interim Final Rule (April 15,
                   1999) are generally supported in the WIA Final Rules, published
                   on August 11, 2000. ETA has negotiated complex issues such as
                   the performance management system with representatives of state
                   agencies, public interest groups, community based organizations,
                   and other partners. Trying to develop and implement policies
                   which have long-term implications is the challenge the states and
                    ETA must address together.



                                          -11-

                    By doing this in an orderly process, ETA aims to affect continuous
                    improvement in policy, processes, and outcomes.


Conclusion


ETA’s approach in providing 1) clear and consistent direction, 2) assistance, and 3)
oversight to the organizations on which it relies to promote results has been generally
successful in most areas. Assistance by the ETA regional offices was praised by the
states. Based on the responses provided by ETA to the above comments, ETA is
continuing to make improvements in policies and processes based on such feedback.
Attachment 8
